HHS/OIG-Audit--"Operation Restore Trust Skilled Nursing Facility Review Conducted at Edward White Transitional Care Unit, St. Petersburg, Florida, (A-04-96-01128)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Operation Restore Trust Skilled Nursing Facility Review Conducted at Edward White Transitional Care Unit, St. Petersburg,
Florida," (A-04-96-01128)
February 6, 1997
Complete
Text of Report is available in PDF format (797 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The primary objective of the review was to evaluate the medical necessity of the care and services provided and the reasonableness
of the charges and reimbursements made during the period from January 1, 1994 through December 31, 1994.
The Operation Restore Trust reviewers questioned $7,244 in charges reported for the 27 sample beneficiaries in our study.
This amount comprises $2,662 related to physical and occupational therapy services, which were not reasonable and necessary
$4,209 in routine supply, and drug charges incorrectly reported as ancillary charges. Therefore, we are recommending an
adjustment of the above charges.